SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Ronald D. Smith
Reg. No. M49583
Hill Correctional Center
P.O. Box 1700
Galesburg IL 61402

January 27, 2021
in re:

People State of Illinois, respondent, v. Ronald D. Smith, petitioner.
Leave to appeal, Appellate Court, Second District.

126570
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 03/03/2021.

Very truly yours,

dM>
Clerk of the Supreme Court

d

f
No. 2-19-0196
Summary Order filed July 28, 2020
NOTICE: This order was filed under Supreme Court Rule 23(c)(2) and may not be cited
as precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT

THE PEOPLE OF THE STATE
AT T7

T TX T/"XTO

Of lLvl^iiNWlO,

Plaintiff-Appellee,
v.

)
)

Appeal from the Circuit Court
of Du Page County.

)
)
)

)

No. 1 l-CF-1546

)

RONALD D. SMITH,
Defendant-Appellant.

)
)
)

Honorable
Jeffrey S. MacKay,
Judge, Presiding.

JUSTICE HUTCHINSON delivered the judgment of the court.
Justices Schostok and Hudson concurred in the judgment.
SUMMARY ORDER

11

In 2014, defendant, Ronald D. Smith, entered a negotiated guilty plea to attempted first

degree murder (720 ILCS 5/8-4(a), (c)(1)(B)) (West 2010)) and aggravated discharge of a firearm
{id. § 24-1.2(a)(2)). He was sentenced to an aggregate prison term of 31 years, which included a
20-year firearm enhancement on the attempted murder conviction. In December 2016, defendant
filed apro se petition for relief from judgment under section 2-1401 of the Code of Civil Procedure
(735 ILCS 5/2-1401 (West 2016)). In his section 2-1401 petition, defendant relied on People v.
Morgan, 203 Ill. 2d 470 (2003), overruled by People v. Sharpe, 215 Ill. 2d 481 (2005), to argue
that the judgment was void because the firearm enhancement violated the proportionate penalties

./

No. 2-19-0196

clause of the state constitution. The State moved to dismiss, arguing that the judgment was valid
under the amended version of the statute effective at the time of the crime. The trial court granted
the motion. In November 2018, defendant filed another section 2-1401 petition, again relying on
Morgan to argue that the firearm enhancement was void and distinguishing Sharpe, which
overruled Morgan. The State moved to dismiss, repeating its arguments made in response to the
first section 2-1401 petition. The trial court granted the motion. Defendant timely appealed, and
the trial court appointed the Office of the State Appellate Defender.

12

Pursuant to Pennsylvania v. Finley, 481 U.S. 551 (1987), and People v. Lee, 251 Ill. App.

3d 63 (1993), the appellate defender moves to withdraw as counsel. In her motion, counsel states
that she read the record and found no issue of arguable merit. Counsel further states that she
advised defendant of her opinion. Counsel supports her motion with a memorandum of law
providing a statement of facts, a list of potential issues, and arguments why those issues lack
arguable merit. Defendant has filed a response to the motion.
If 3 '

We agree with counsel that there is no arguable basis for challenging the dismissal of

defendant’s section 2-1401 petition. Counsel first notes that defendant’s reliance on Morgan is
misplaced. In Morgan, our supreme court struck down the enhancement for attempted first degree
murder that applied where “a firearm was in defendant's possession.” 203 Ill. 2d at 491-92 (citing
720 ILCS 5/8-4 (West 2000) (attempt statute). Using a cross-comparison analysis, the court held
that the enhancement was unconstitutionally disproportionate to the penalty for second degree
murder. Id. But Morgan was overruled by Sharpe, which effectively revived the constitutionality
of the enhancement. See People v. Hauschild, 226 Ill. 2d 63, 76 (2007) (discussing Morgan and
Sharpe). Moreover, counsel correctly notes that the matter is barred by principles of res judicata.

-2 -

V

No. 2-19-0196

114

44

4

The doctrine of res judicata provides that a final judgment on the merits rendered by a

court of competent jurisdiction bars any subsequent actions between the parties or their privies on
the same cause of action.’ ” People v. Johnson, 2015 IL App (2d) 140388,1f 6 (quoting People v.
Carroccia, 352 Ill. App. 3d 1114, 1123 (2004)). It bars relitigating

44

4

any issues which have

previously been decided by a reviewing court.’ ” Id. (quoting People v. Whitfield, 217 Ill. 2d 177,
183 (2005)). Here, the issue of the constitutionality of the enhancement was previously raised by
defendant and decided by the trial court in defendant’s first section 2-1401 petition.

115

Defendant has filed a response to counsel’s motion to withdraw. Defendant continues to

incorrectly argue that Sharpe did not overrule Morgan or revive the enhancement. He does not
address whether res judicata applied to his second petition.

116

Finally, counsel correctly notes that there is no basis for arguing that the dismissal of the

petition violated any procedural rules.

117

After examining the record, the motion to withdraw, and the memorandum of law, we agree

with counsel that this appeal presents no issue of arguable merit. Thus, we grant the motion to
withdraw, and we affirm the judgment of the circuit court of Du Page County.
U8

Affirmed.

-3 -

X

I i

S

f,AT JUSTrr,A

!l Tr

VC.!*

IS I

ILLINOIS APPELLATE COURT
SECOND DISTRICT
55 SYMPHONY WAY
ELGIN, IL 00120
(847) 095-3750

MANDATE
Panel:

Honorable Susan Fayette Hutchinson
Honorable Mary S. Schostok
1 ' Honorable Donald C. Hudson

THE PEOPLE OF THE STATE
OF ILLINOIS,
Plaintiff-Appellee,
v.
RONALD D. SMITH,
Defendant-Appellant.

r

i

Appeal No.: 2-19-0196
County/Agency: DuPage County
Trial Court/Agency Case No.: 11CF1546
i

-!

i\ •

■

BE IT REMEMBERED, that on the 28th day of July, 2020, the final judgment of the
Illinois Appellate Court, Second District, was entered of record1 as follows:
Affirmed
In accordance with Illinois Supreme Court Rule 368, this mandate is issued: As clerk of
the Illinois Appellate Court, Second District, and keeper of the records, files, and seal thereof, I
certify that the foregoing is a true statement of the court’s final judgment in the above cause.
Pursuant to Illinois Supreme Court Rule 369, the clerk of the circuit court shall file the mandate
promptly.

if

s
FIAT JUST1TIA

IN TESTIMONY WHEREOF, I hereunto set my
hand and affix the seal of the Illinois Appellate
Court, Second District, this 9th day of March,
2021.

Clerk of the Court

&

I?

■ -ir
^ !' ■'

380
ined or imprisoned 0r
n provided for the 0f.
spiracy.
racy
- - to commit
,
any of
itenced for a Class x

if

i

L

5

a conspiracy when the
piracy (720 ILCS o/46_
entity insurance fraud
i organizer of the con-

,CS 5/9-1); or
j (720 ILCS 5/46-3) or
rfice fraud (720 ILCS
iracyJo commit insurf. governmental entity
shall be sentenced for a

5/8-3. Defense
§ 8-3. Defense. It is a defense to a charge of solicitation
or conspiracy that if the criminal object were achieved the
accused would not be guilty of an offense.
Laws 1961, p. 1983, § 8-3, eff. Jan. 1, 1962.
Formerly Ill.Rev.Stat.1991, ch. 38,11 8-3.

racy to commit any of
fenced for a Class 3

:ii

(720 ILCS 5/11-

i-k3(a)(2)(A) or 5/11riiiffl (720 ILCS 5/11-

L

i-A‘

iA'ovnw
Ion 24—1(a)(1)

1.
J

*s-

-don 24-1(a)(7)

:J

■i

i5-CS;5/28-3);
/ . ' 'lamps violation

1/ :

V.

tJ/ItCS57Q/404);
Nation under

:

3j|Ae Principal
Mg^nded by

pS*7!;772’§ !•
P.A.

£■- jfcjulyT,
gtePv'20lO; P.A.

if*

’if

nr/
m
Us.0”
I

. e Constitution of the State of Illinois, the laws of the
rtnited States, or the laws of the State of Illinois by any
person- or persons, agrees with another to inflict physical
harm ron any other person or the threat of physical harm on
any other person and either the accused or a co-conspirator
has committed any act in furtherance of that agreement.
(b) Co-conspirators. It shall not be a defense to conspira­
cy against civil rights that a person or persons with whom
jbe accused is alleged to have conspired:
(1) has.not been prosecuted or convicted; or
(2) has been convicted of a different offense; or
(3) is not amenable to justice; or
(4) has been acquitted; or
(5) lacked the capacity to commit an offense.
(c) Sentence. Conspiracy against civil rights is a Class 4
felony for a first offense and a Class 2 felony for a second or
subsequent offense.
Laws 1961, p. 1983, § 8-2.1, added by P.A. 92-830, § 5, eff.
Jan. 1, 2003.

racy to commit any 0f
atenced for a Class l

4

a

■!i

i

5/8-4. Attempt
§ 8-4. Attempt.
(a) Elements of the offense.
A person commits the offense of attempt when, with intent
Lu coiiUnii ii Ltpv.cuii. oi.■ I'lSo,
. ..: I'.?-’
iLv
constitutes a substantial step toward the commission of that
offense.
(b) Impossibility.
It is not a defense to a charge of attempt that because of a
misapprehension of the circumstances it would have been
impossible for the accused to commit the offense attempted.
(c) Sentence.
A person convicted of attempt may be fined or imprisoned
or both not to exceed the maximum provided for the offense
attempted but, except for an attempt to commit the offense
defined in Section 33A-2 of this Code:
(1) the sentence for attempt to commit first degree
murder is the sentence for a Class X felony, except that
(A) an attempt to commit first degree murder when
at least one of the aggravating factors specified in
paragraphs (1), (2), and (12) of subsection (b) of Section
9-1 is present is a Class X felony for which the sentence
shall be a term of imprisonment of not less than 20 years
and not more than 80 years;
(B) an attempt to commit first degree murder while
armed with a firearm is a Class X felony for which 15
years shall be added to the term of imprisonment im­
posed by the court;
(C) an attempt to commit first degree murder during
which the person personally discharged a firearm is a
Class X felony for which 20 years shall be added to the
term of imprisonment imposed by the court;
(D) an attempt to commit first degree murder during
which the person personally discharged a firearm that
proximately caused great bodily harm, permanent dis-

j
i -

i
s-..
LI

720 ILCS 5/8-6

CRIMINAL OFFENSES

381

ability, permanent disfigurement, or death to another
person is a Class X felony for which 25 years or up to a
term of natural life shall be added to the term of
imprisonment imposed by the court; and
(E) if the defendant proves by a preponderance of the
evidence at sentencing that, at the time of the attempted
murder, he or she was acting under a sudden and
intense passion resulting from serious provocation by
the individual whom the defendant endeavored to kill, or
another, and, had the individual the defendant endeav­
ored to kill died, the defendant would have negligently
or accidentally caused that death, then the sentence for
the attempted murder is the sentence for a Class 1
felony;
(2) the sentence for attempt to commit a Class X felony
is the sentence for a Class 1 felony;
(3) the sentence for attempt to commit a Class 1 felony
is the sentence for a Class 2 felony;
(4) the sentence for attempt to commit a Class 2 felony
is the sentence for a Class 3 felony; and
(5) the sentence for attempt to commit any felony other
than those specified in items (1), (2), (3), and (4) of this
subsection (c) is the sentence for a Class A misdemeanor.
Laws 1961, p. 1983, § 8-4, eff. Jan. 1, 1962. Amended by
Laws 1967, p. 2595, § 1, eff. Aug. 3, 1967; P.A. 77-2638, § 1,
eff. Jan. 1, 1973; P.A. 78-342, § 1, eff. Oct. 1, 1973; P.A. 801099, § 1, eff. Feb. 1, 1978; P.A. 81-923, § 1, eff. Jan. 1,
1980; P.A. 84-1450, § 2, eff. July 1, 1987; P.A. 87-921, § 1,
eff. Jan. 1, 1993; P.A. 88-680, Art. 35, § 35-5, eff. Jan. 1,
1995; P.A. 91-404, § 5, eff. Jan. 1, 2000. Re-enacted by P.A.
91-696, Art. 36, § 35-5, eff. April 13, 2000; P.A. 96-710,
§ 25, eff. Jan. 1, 2010.
Formerly ill.Kev.atac.iyi/i, on. 3b, i a-i.
Validity

/

Enhanced penalties for attempted first degree
murder with a handgun as a Class X felony, ivith
mandatory addition of 15, 20, or 25 years to life to
a sentence, were held unconstitutionally dispropor­
tionate under Illinois Constitution Art. I, § 11 by . 4s
People v. Morgan, 2003, 272 Ill.Dec. 160, 203 Ill.2d ^
470, 786 N.E.Zd 99U, because a defendant can receive a harsher sentence if the victim survises than ^
if the victim dies. But, see People v. Sharpe, 216
III. 2d 181 (2005).
V)

5/8-5. Multiple Convictions
§ 8-5. Multiple Convictions. No person shall be convict­
ed of both the inchoate and the principal offense.
Laws 1961, p. y)83, § 8-5, eff. Jan. 1, 1962.
Formerly Ill.Rev.Stat.1991, ch. 38, H 8-5.
5/8-6. Offense
§ 8-6. Offense. For the purposes of this Article, “of­
fense” shall include conduct which if performed in another
State would be criminal by the laws of that State and which
conduct if performed in this State would be an offense under
the laws of this State.
Laws 1961, p. 1983, § 8-6, eff. Jan. 1, 1962.
Formerly Ill.Rev.Stat.1991, ch.38, H 8-6.

\

fan an 2J9+-2.2.
People v. Blair, 2013 IL 114122 (2013)
98—________

armed violence and armed robbery statutes.
11 22 In Clemons, decided after the enactment of Public
Act 95-688, we declined the State’s invitation to overrule
Hauschild or abandon the identical elements test.
Clemons, 2012 IL 107821,
19, 26, 53, 360 Ill.Dec. 293,
968 N.E.2d 1046. In the present case, we decide the issue
left unanswered in Clemons: whether, following the
legislature’s enactment of Public Act 95-688, the State
can obtain an enhanced sentence for armed robbery. Id. ffl
51-52. We note that our appellate court has not ruled
consistently on this issue. Compare People, v. Brown.2012
IL App (5th) 100452, 360 Ill.Dec. 165, 968 N.E.2d 658,
and People v. Malone, 2012 IL App (1st) 110517, 365
Ill.Dec. 365, 978 N.E.2d 387 (holding that Public Act
95-688
revived the armed robbery sentencing
enhancement), with People v. Gillespie, 2012 IL App
(4th) 110151, 363 Ill.Dec. 191, 974 N.E.2d 988. and
People v. McFcidden, 2012 IL App (1st) 102939, ___
Ill.Dec.
----- N.E.2d
, 2012 WL 6028631
(holding that Public Act 95—688 did not revive the aimed
robbery sentencing enhancement).
H 22 With this background, we consider the parties’
arguments.

u 24 III
1) 25 The State urges us to reverse the appellate court
judgment and hold that Public Act 95-688 revived the
sentencing enhancement in the armed robbery statute.
Relying on Hauschild, the State maintains that just as
Public Act 91-404 revived the offense of armed violence
based on robbery by amending the armed robbery statute,
Public Act 95-688 revived the sentencing enhancement
for armed robbery by amending the armed violence
statute. The State disputes that, under the void ab initio
doctrine, the legislature could only revive the armed
robbery sentencing enhancement by amending and/or
reenacting that statute. The State explains that unlike
other constitutional violations, an identical elements
W
proportionality violation arises from the relationship
Csl **132 *81 between two statutes. Therefore, at least two
^ <>4 rways exist to remedy the constitutional violation: amend
the challenged statute or amend the comparison statute.
X
'Here, the legislature opted to amend the comparison
statute. The State also posits that amendment of the armed
robbery statute was unnecessary because Hauschild
simply rendered the statute unenforceable until the
constitutional infirmity was remedied.

’ll 26 Defendant argues that although Public Act 9.5-688
may have remedied the constitutional infirmity in the,
armed robbery statute identified in Hauschild, Public Act
95-688 did not revive the sentencing enhancement in that
statute. Defendant contends that once Hauschild declared
the
armed
robbery
sentencing
enhancement
unconstitutional the statute was void ab initio, and “the
enhancement never existed.” Defendant maintains that \<
unless and until the legislature reenacts the sentencing J
enhancement in the armed robbery statute, it remains a/
nullity.
{

, &'

■bO

H 27 We agree with the State. Public Act 95-688 revived
the sentencing enhancement for armed robbery.
m Pi

11 28 When a statute is held facially unconstimtional,
i.e., unconstitutional in all its applications (see In re
Rodney H., 223 I11.2d 510, 521, 308 Ill.Dec. 292, 861
N.E.2d 623 (2006)), the statute is said to be void ab initio.
Laden v. Briley, 213 I11.2d 340, 344-45, 290 Ill.Dec. 574.
821 N.E.2d 1148 (2004); Hill v. Cowan, 202 Ill.2d 151.
156, 269 Ill.Dec. 875, 781 N.E.2d 1065 (2002); see also
People v. Gersch, 135 I11.2d 384, 390, 142 Ill.Dec. 767,
553 N.E.2d 281 (1990) (“ l[w]hen a statute is held
unconstitutional in its entirety, it is void ab initio ’ ”
(quoting Manuel, 94 I11.2d at 244-45, 68 Ill.Dec. 506, 446
N.E.2d 240)); Perlstein v. Wolk, 218 Ill.2d 448, 455, 300
Ill.Dec. 480, 844 N.E.2d 923 (2006) (an unconstitutional
statute is void “from the beginning”). The void ab initio
doctrine is based on the theory that:
An unconstitutional act is not a law; it confers no
rights; it imposes no duties; it affords no protection;
it creates no office; it is, in legal contemplation, as
inoperative as though it had never been passed.’ ” Id.
at 454, 300 Ill.Dec. 480. 844 N.E.2d 923 (quoting
Norton v. Shelby Co untv, 118 U.S. 425, 442, 6 S.Ct
1121, 30 L.Ed. 178 (1886)).
If 29 Contrary to defendant’s argument, the void ab initio
doctrine does not mean that a statute held unconstitutional
“never existed.” As we recognized in Perlstein, “ ‘[t]he
actual existence of a statute,’ ” prior to a determination
that the statute is unconstitutional, “ ‘is an operative fact
and may have consequences which cannot justly be
ignored. The past cannot always be erased by a new
judicial declaration.’ ” Perlstein, 218 Ill.2d at 461, 300
Ill.Dec. 480, 844 N.E.2d 923 (quoting Chicot Countr
Drainage District r. Baxter State Bank, 308 U.S. 371,
374. 60 S.Ct. 317, 84 L.Ed. 329 (1940)). Moreover, to
construe the void ab initio doctrine as rendering a statute
nonexistent is tantamount to saying that this court may
repeal a statute. See Certain Taxpayers v. Sheahen, 45
Ill,2d 75, 81, 256 N.E.2d 758 (1970) ( “effect of repeal is

People v. Blair, 2013 IL 114122 {2013)

986l^E!2d7069lii3ec7T26
to obliterate the statute repealed as completely as though
it had never been passed as a law and never existed”).
Such a result, however, would contravene our separation
of powers clause. Ill. Const. 1970, art. II, § 1.
141 -30 The power to enact-laws, and the concomitant
power to repeal those laws, reside in the General
Assembly. Allegis Realty Investors v. Novak, 223 Ill.2d
318, 334-35, 307 Ill.Dec. 592, 860 N.E.2d 246 (2006);
Hilberg v. Industrial . Comm 'n. .380 Ill,. 102,. 106, 43
N.H.2d 671 (1942); '•*133 *82 34 111. I- and Prac.
Statutes §§ 3, 35 (2001). Our function is to interpret those
laws, determining and giving effect to the legislature’s
intent. Allegis Realty Investors, 223 Ill.2d at 334-35, 307
Ill.Dec. 592, 860 N.E.2d 246; Best v. Taylor Machine
Works, 179 I11.2d 367, 378, 228 Ill.Dec. 636, 689 N.E.2d
1057 (1997); Droste v. Kerner, 34 Ill.2d 495, 504, 217
N.E,2d 73 (1966); see also Perlstein, 218 I11.2d at 471,
300 Ill.Dec. 480, 844 N.E.2d 923 (“ ‘courts have no real
power to repeal or abolish a statute’ ” (quoting Laurence* ■
H. Tribe. American"Constitutional-Law § 3-3, at 28 (2d 1
'-Q ed. 1988))); Henrich r!. Libertyville High School, 186
Ill.2d 381. 394, 238 Ill.Dec. 576, 712 N.E.2d 298 (1998)
V (“Courts have no legislative powers; courts may not enact J
\aj 'm’amend^tatiites?7). Although we are obligated to declare >
an unconstitutional statute invalid and void (Best, 179
111.2d at 378, 228 Iil.Dec. 636, 689 N.E.2d 1057; Gersch,
135 111.2d at 398, 142 Ill.Dec. 767, 553 N.E.2d 281), such
a declaration by this court cannot, within the strictures of
the separation of powers clause, repeal or otherwise
render the statute nonexistent. Accordingly, when we
declare a statute unconstitutional and void ab initio, we
mean only thaTthe statute was constitutionally infirm
from the moment of its enactment and is, therefore,
'unenforceable. As a Pd'hsequence, we will give no etfect _
to the unconstitutional statute and instead apply the prior"
~~Iaw to the partieFbefore us. See, e.g., Haiischilcl, iiQ
Ill.2d at 88-89, 312 Ill.Dec. 601. 871 N.E.2d 1
(remanding for resentencing under statute as it existed
"prior to "the adoption of the unconstitutional amendment);
accord~lemons, 2012 IL 10782L <[ 60, 360 Ill.Dec. 293,
968 N.E.2d 1046. See also Gersch, 135 Ill.2d at 390, 142
/ Ill.Dec. 767, 553 N.E.2d 281 (“The effect of enacting an
I unconstitutional amendment to a statute is to leave the
law in force as it was before the adoption of the
statute
declared
amendment.”).
In
short,
unconstitutional by this court “ ‘continues to remain on
the statute books’ ” (Perlstein, 218 111.2d at 471, 300
Ill.Dec. 480. 844 N.E.2d 923 (quoting Laurence H. Tribe,
\ American Constitutional Law § 3-3. at 28 (2d ed. 1988))),
\ and unless and until the constitutional violation is
\ remedied, our decision stands as an impediment to the
Voperation and enforcement of the statute.

V'/cSTu AW

H 31 Ordinarily, when this court declares a statute r ^
'unconstitutional, or otherwise invalid, the only way ill
*T
which the legislature may remedy the statute’s infirmity is
vsa.
by amending or reenacting that' statute. For example,
"when a statute is held unconstitutional because it was
adopted in. violation of the single subject rule, the
legislature may revive the statute by reenacting the same
provision, but in a manner that does not offend the single
subject rule. People v. Ramsey, 192 I11.2d 154, 157, 248
Ill.Dec. 882, 735 N.E.2d 533 (2000); see also Lebron v.
Gottlieb Memorial Hospital, 237 I11.2d 217, 250, 341
Ill.Dec. 381, 930 N.E.2d 895 (2010) (legislature was free
to reenact provisions of Public Act 94-677 deemed
invalid solely on severability grounds). When a statute is
found to violate the proportionate penalties clause under
the identical elements test, however, amendment or
reenactment of that statute is not the legislature’s only
recourse. This is so because of the unique nature of an
identical elements proportionality violation.
1j 32 A proportionate penalties violation, under the
"identical elements test, occurs when “two offenses have
identical elements but disparate sentences. Hmtschild,
""226 I11.2d at 85, 312 Ill.Dec. 601. 871 N.E.2d 1; see also
Sharpe, 216 I11.2d at 503-05, 298 Ill.Dec. 169, 839
N.E.2d 492 (discussing the origin of identical elements
proportionality review). Thus, unlike other constitutional
violations which are based on the manner in which a
elements
identical
single
statute
operates,
an
proportionality **134 *83 violation arises out of the
relationship between two statutes—the 'challenged statute,
and the comparison statute with which the challenged
Christy, 139
statute is out of proportion. E.g., People
Ill.2d 172. 177. 151 Ill.Dec. 315, 564 N.E.2d 770 (1990)
(comparing armed violence predicated on kidnapping
with a category I weapon and aggravated kidnapping);
Lewis, 175 Ill.2d at 414. 222 Ill.Dec. 296, 677 N.E.2d 830
(comparing armed violence predicated on robbery
committed with a category I weapon and armed robbery);
Hauschild, 226 Ill.2d at 85—86, 312 Ill.Dec. 601, 871
N.E.2d 1 (comparing armed robbery while armed with a
firearm and armed violence based on robbery with a
category I or II weapon). Although only the statute with
the greater penalty will be found to violate the
proportionate penalties clause (Sharpe, 216 Ill.2d at 504,
298 Ill.Dec. 169. 839 N.E.2d 492), _that violation is
entirely dependent upon the existence of the comparison
statute, i.e., the statute with identical elements but a lesser
penalty. In light of this peculiar feature of an identical
elements proportionality violation, the legislature has
more options available to it should it wish to remedy the
constitutional violation and revive the statute. The
legislature may amend the challenged statute held
unconstitutional, amend the comparison statute, or amend

i
486

;V
IJb
'

C
'S?

"tl'.ll

iO-

.300 ILLINOIS DECISIONS

In the course of our decision, we held
Public Act 92-607. which suspended the
2003 COLA, constitutionally infirm and
void ab initio. Jorgensen, 211 I11.2d at
309, 285 Ill.Dcc. 165, 811 N.E.2d 652.
Here, plaintiffs do not request that we
“suspend" constitutional requirements by
enforcing an unconstitutional statute.
Rather, plaintiffs ask that wo consider the
equities of this case and allow their com­
plaint to proceed. Jorgensen does not aid
in our resolution of this issue.
LI, 2] We acknowledge that defendants’
position—advocating strict ajDpl.icat.ion of
the void aIt initio doctrine—has a certain
surface appeal, creating as it would a
bright-line rule which could be applied
with relative ease. Defendants’ position,
however, unduly discounts the real-life
consequences flowing from a statutory en­
actment. When the General Assembly en­
acts legislation such as Public Act 89-7,
that legislation is presumjjtively valid.
See, e:g.. In re. Marriage of Bates. 2.12
Hl.2d ISP, 509. 28!) IILDpo. 218. SI!) N.E.2d
714 12004) (“Statutes are presumed consti­
tutional’’); Beunbien v. Rgan, IPS 111.2c!
294, 298, 260 Jll.Dec. 842, 762 N.E.2d 501
(2001) (statutory enactments are “cloaked
with the presumption of validity’’). Indi­
viduals, including plaintiffs here, "are enti­
tled to rely on State statutes when ‘making
decisions and in shaping their conduct.’ ”
Board of Commissi oners-of the Wood Vale
Public Luma'll District, v. County of Du
Page, 103 111.2d 422, 429, 83 Jll.Dec. 224,
469 N.E.2d 1370 (1984), quoting Lemon v.
Kutizman, 411. U.S. 192, 199, 93 S.Ct.
1463, 1468, 36 L.EcI.2d 151, 160 (1973)..
See also Adukia v. Finney, 315 Ili.App.3d
766, 770, 248 Jll.Dec. 854, 735 N.E.2d 174
(2000) (recognizing, in a post.-/tast case,
that “a party should not be penalized for
his good-faith reliance on existing law”).
Individuals are not required or empowered
to determine whether the law is conslitu-

844 N.E.2tl 930

844 N.K.2d 929

PBRLSTE1N v. WOLK
Cite ns 300 Jll.Dec. 480, 844 N,11,2(1 923 (III. 2006)

tional; that duty belongs to the .judiciary.
Garsch, 135 I11.2d at 398-99, 142 lll.Dec.
767, 553 N.E.2d 281. Strict, application of
the void ab initio doctrine fails to fake into V”
account these realities, creating a “Catch- ^
22.” Individuals are entitled to rely on a
legislative enactment, presuming it is valid, '-r* ^
but must suffer the consequences of doing
so should this court later hold that law7
^
unconstitutional.

on Statutory Construction § 2:7, at 47 (6th
ert.2002).

3

m

Although defendants note that courts in
other jurisdictions strictly apply the void
ab initio doctrine (e.g., Spanish Cove San­
itation, Inc. v. Louisville-Jefferson Coun­
ty Metropolitan Sewer District. 72 S.W.Sd
918, 921 (Ky.2002); McGuire v. C & L
Restaurant Inc., 346 N.W.2d 605, 614
(Minn.1984)), our research reveals that
comls do not do so universally. As dis­
cussed below, courts in other jurisdictions
frequently consider the equities of a case
and will take steps to ameliorate the harsh
results from the doctrine’s strict applic ation. Whether Illinois should adopt a simi­
lar approach is the issue \vp now consider,
ii. An KquilabTiTApproaeli
As noted above, Illinois’ void ab initio .
doctrine has its roots in the early case of
Norton v. Shelby County, 118 IJ.S. 425, 6
S.Ct. 1121, 30 L.Ed. 178 (1886). Under
the Norion rule, the invalid statute is
“eliminated entirely from the consideration
of a case.” O. Field, The Effect of an
Unconstitutional Statute 3 (1935). No
weight is given to the fact that the statute
was enacted by the legislature, approved
by the Governor, and relied upon by the
people prior to it being declared invalid by
a court. O. Field, The Effect of an Uncon­
stitutional Statute 3 (1935). Under this
approach, some courts have gone so far as
to rule that “an unconstitutional statute
could not protect an officer who executed
it. or a person who acted in reliance upon it
for personal liability for the consequences
of their actions.” 1 N. Singer, Sutherland .

hV

t

i
■

m
■U

m

31
:1|

|g
£

1

\
£

|h?
P

;

t:
jj

The failure of the Norion rule to consid­
er the reliance interests of individuals was
described earlv on by the New7 Jersey
Supreme Court as follows:
"The vice of the doctrine of Norton v.
Shelby Comity * * * is that, it fails to
recognize, the right of the citizen, which
is to accept the law as it is written, and
not to be required to determine its validity. The latter is no more the function
of the citizen than is the making of the
law7.
* * To require the citizen to
determine for himself, at his peril, to
what extent, if at all, the legislature has
overstejDped the boundaries defined by
the constitution * * * would be to place
upon him an intolerable burden.” Lang
v. Mayor & Chief of Police, 74 N.J.L.
455, 459, 63 A. 90 (1907).
The United States Supreme Court has
also recognized that inequities can result
from strict application of the Notion rule.
See Chicot County Drainage District, v.
Hn.dcr .Stole Hunk. SOS U.S. -37], (JO S.Cl.
317, 84 L.Ed. 329 (1940): Lemon v. Kntizmon. 411 U.S. 192, 93 S.Ct. 1463, 36
L.Ed.2d 151 (1973): In Chicot County,
Chief Justice Hughes, writing for a unani­
mous Court, noted that “broad state­
ments,” such as those in Notion, “as to the
effect of a determination of unconstitution­l_
ality must be taken with qualifications.
Chicot Cntmty, 308 U.S. at 374, 60 S.Ct. at
318, 84 L.Edr-at 332. The Court explained
that “[t]he actual existence of a statute,
prior to such a determination, is an opera­
tive fact and may have consequences which
cannot justly be ignored. The past cannot
always be erased by a new judicial declaration.” Chicot County, 308 U.S. at 374, 60
S.Ct. at 318, 84 L.Ed. at 333.
The Court again took up the shortcomings of the Notion rule in the Lemon case,
There, Chief Justice Burger (in a plurality

487

opinion) acknowledged the difficulty in at­
tempting to reconcile “the constitutional
interests reflected in a new rule of law
'lviUl reliance interests founded upon the
Lemon, 411 U.S. at 198, 93 S.Ct. at
1468, 36 L.Ed.2d at 160. Chief Justice
recognized that although tiie logic
of UvrUm may have been appealing “in the
abstract,” “statutory or even judge-made
nules of law are hard facts on which people
must rely in making decisions and in shap­
ing their conduct.” Lemon, 411 U.S. at.
199, 93 S.Ct. at 1468, 36 L.Ed.2d at 160.
Numerous courts are in agreement that
Notion represents the old rule as to the
effect, of an unconstitutional statute. See,
e.g., Ryan v. County of DuPage. 45 F.3d
1090, 1094 (7th Oir.1995) (acknowledging
that the "old doctrine,” under Notion, pur­
suant to which unconstitutional statutes
are void ab initio “has been abandoned”);
Tnickc v. Erlemeicr, 657 F.Supp. 1382,
1391 (N.D.Iowa 1987) (obsei’ving that the
United States Supreme Court abandoned
the Notion rationale and suggesting that
“if Notion anti its progeny were derided
today, the outcome would be different”);
United States v. Dc.Poli, 62S F.2d 779, 7S2
(2d Cir.1980) (recognizing that the Notion
view, under wdiich an unconstitutional law
is treated as having had no effects whatso­
ever from the date of its enactment, has
been replaced by a more “realistic ap­
proach”); W.R. Grace it Co. v. Depariinent of Revenue, 137 Wash.2d 580, 594 &
n. 10, 973 P.2d 1011, 1017 & n. 10 (1999)
(rejecting parties’ reliance on the nowabandoned void ab initio doctrine and referring to Notion as “antiquated Supreme
Collrt ■mth„r;i.y»); American Mnmifactmeus Mutual Insurance Co. v. Ingram, 301
N.C. 138, 147-50, 271 S.E.2d 46, 51-52
(1980) (stating that, “fdjepentling on the
circumstances, courts have employed other
rules which avoid the hard and fast consequences of the rule enunciated in Notion,”

$cj)f ) 6U
484

|4: \

V)

!J g
X

300.ILLINOIS DECISIONS

holding that Joyce would apply retroac­
tively to Gersch’s case, we stated:
“A constitutionally repugnant enactment
suddenly cuts off rights that are guaran­
teed to every citizen (Ill. Const.1970, art.
1, § 1 (‘All men * '* * have certain in­
herent and inalienable rights’)), and in­
stantaneously perverts-the duties owed
to those citizens. To hold that a judicial
decision that declares a statute unconsti­
tutional is not retroactive would forever
prevent those injured under the uncon­
stitutional legislative act from receiving
a remedy for the deprivation of a guar­
anteed right. This would clearly offend
all sense of due process under both' the
Federal and State Constitutions. [Cita­
tions.] Along with these considerations,
vve note that this court has expressly
held that a defendant cannot be prose­
cuted under an unconstitutional act.”
Gersch, 135 lll.2d at 397-98, 142 Ill.Dec.
767, 553 N.E.2d 281.
We concluded that “where a statute is
violative of constitutional guarantees, we
have a duly not only to declare such a
legislative act void, hut. also to correct, the
wrongs wrought through such an act by
holding our decision retroactive.” Gersch,
135 111 .2d at 399, 142 Ill.Dec. 767, 653
N.E.2d 281.
To correct the wrong
wrought in Gersch’s case, we reversed his
conviction and remanded the cause for a
new trial. Gersch, 135 U1.2d at 401-02,
142 Ill.Dec. 767, 553 N.E.2d 281.

;

Unlike the statute at issue in Gersch, the
portion of Public Act. 89-7 that removed
section 13—214.3(d) from the attorney mal­
practice statute of limitations did not “sud­
denly cut olT rights guaranteed to every
citizen” or even to these particular defen­
dants. Attorneys in this state possess no
constitutional guarantee of a particular
limitations or repose period for malprac­
tice actions. Thus, the change made in the
repose period by Public Act. 89-7 did not

844 N.E.2d 928

844 N.E.2d 927
¥■

I

perpetrate a “wrong” against defendants
requiring correction. Indeed, the amendpift
ment to the repose period was rendered
^
invalid simply because it could not lie severed from the balance of Public Act 89-7,
and not because it contravened any consti- J1!
tutional principle. In other words, the
invalidity of the amendment to section 18a
214.3 was simply “collateral damage” from
the force of this court’s declaration in Best ‘jS
that the core provisions of Public Act 89-7 • Jj
were substantively unconstitutional. Under these circumstances, and in contrast to •••a
the Gersch case, failing to adhere strictly
to void ab initio principles would not dc- -s|
prive defendants of a remedy for the de­
privation of a constitutional right because
no such right is implicated.

l

f
*

S'
f
f

PEKLSTEIN v. WOLK
Cite as *00 Ill.Dec. 480, 844 N.K.2U 923 (III. 2006)

the invalidation of rules of criminal pro­
cedure would allow othenvise guilty
criminals to win their freedom [citation].
Attempting to avoid these problems,
courts have attempted to temper the ab
initio doctrine’s harsh results * * * to
minimize unfairness. [Citation.] How­
ever, scholars have 'noted that in the
area of criminal prosecution, the ab ini­
tio principle is especially appropriate.”
(Emphasis added.) Gersch, .135 111.2d at
399-400, 142 Ill.Dec. 767, 553 N.E.2d
281.
We are, therefore, reluctant to extend the
reach- of Gersoh beyond cases involving
criminal prosecutions.

Notwithstanding these important factual
distinctions between Gersch and the present case, defendants argue that the void ab
initio doctrine must be strictly applied in
this civil case just as it was in Gersch.
Defendants note that Gersch, itself, con­
tains citation to civil cases from this court
applying the doctrine. D.g., Gersch, 135
I11.2d at 390, 142 Ill.Dec. 767, 553 N.E.2d
281, citing Van Drid Drug Store, Inc. v.
Mahin, 47 Ill.2d 378, 265 N.E.2d 659
(1970). The civil cases cited in the Gersch
opinion establish, at most, that the void ab
initio doctrine can be applied to a civil
case; they do not establish that the doc­
trine should be applied to civil cases gen­
erally, oi- to this civil case in particular.
Moreover, the Gersch opinion left open the
issue of whether application of the void ah
initio doctrine is always appropriate in
cases outside the area of criminal prosecu­
tions:

4-jjfj
'f*
.$§

“We must note, however, that courts
have been struggling with the potential­
ly harsh results of the ab initio doctrine,
particularly where law enforcement offi­
cials have relied in good faith on the
validity of a statute [citations], or where

m
*

Defendants also cite our more recent
decisions in Petersen v. WallacJ;, 198 111.2c!
439, 261 Ill.Dec. 728, 764 N.E.2d 19 (2002),
and Jorgensen v. Blugajevich. 211 111.2d
286, 285 Ill.Dec. 165, 811 N.E.2d 652
(2004). Defendants argue that Petersen
and Jorgensen establish that the void ab
initio doctrine must be applied in this case
despite the possibility of harsh results.
We disagree.

$1

. .,
^

'#

m

• tSS

da

it

1

m

1
12

I

As defendants note, Petersen, and the
present case involve the same statute. At
issue in Petersen, however, was the proper
construction of section 13—214.3(d). Peter­
sen states: “The sole issue presented by
this appeal is whether the exception to the
six-year statute of repose for attorney mal­
practice actions * * * applies only in cases
where the assets of the deceased pass by
way of the Probate Act * *
Petersen,
198 I11.2d at 441, 261 Ill.Dec. 728, 764
N.E,2d 19. In the course of deciding that
issue, we quoted with favor the following .
passage from an earlier case:
“ ‘ “Where the words employed in a leg­
islative enactment are free from ambigu­
ity or doubt, they must be given effect
by the courts even though the conse­
quences may be harsh, unjust, absurd or
unwise.
[Citations.]
Such conse-

485

‘ quences can be avoided only by a change
of the law, not by judicial construc­
tion.” ’ ” Petersen, 198 111.2d at 447, 261
Ill.Dec. 728,' 764 N.E.2d 19, quoting
County of Knox ex vel. Masterson v. The
1 Highlands, L.L.G., 188 I11.2d 546, 557, '
243 Ill.Dec. 224 , 723 N.E.2d 256 (1999),.
quoting People ex rel. Pauling v. Misevic, 32 111.2d 11, 15, 203 N.E.2d 393
(1964).
Whether, under our rules of statutory con­
struction, an absurd or unjust result
should impact our reading and application
of a clearly worded statute is unrelated to
the issue of whether the void ab initio
doctrine should be applied in a given case.
Defendants are correct that, in a foot­
note, the Petersen opinion implicitly ap­
plies the void ab initio doctrine. Petersen,
198 I11.2d at 443 n. 1, 261 Ill.Dec. 728, 764
N.E.2d 19. We note, however, that nei­
ther the plaintiff nor the defendant attor­
ney argued that the void ab initio doctrine
should not apply in that case. Conse­
quently, vve were not asked to consider •
whether it is ever appropriate to temper
the doctrine’s harsh results. Any harsh
results in Petersen resulted from our con­
struction of the statute, not from applica­
tion of the void ab initio doctrine. Defen­
dants’ reliance on Petersen is misplaced.
The Jorgensen case is also distinguish­
able from the present dispute. At issue in
Jorgensen was “whether the General As­
sembly and the Governor violated the Illi­
nois Constitution when they attempted to
eliminate the cost-of-living adjustments
[COLAs] to judicial salaries provided by
law for the 2003 and 2004 fiscal years.”
Jorgensen, 211 I11.2d at 287, 285 Ill.Dec.
165, 811 N.E.2d 652. We answered that
question in the affirmative and refused to
“suspend” constitutional requirements for
economic reasons, namely, the impact on
the state’s budget. Jorgensen, 211 I11.2d
at 316, 285 Ill.Dec. 165, 811 N.E.2d 652.

Q
£

^

Co^

The attempt statute, 730 ILCS 5/8-4 was first declared unconstitutional as violative of the single­
subject provision of the Illinois Constitution in People v. Cervantes, 189 I11.2d 80 (1999). The

i

statute was re-enacted by Public Act 91-696, effective April 13, 2000. The statute was again
declared unconstitutional as violative of the proportionate penalties provision of the Illinois
Constitution in People v. Morgan, 203 Ill.2d 470 (2005). Morgan focused on the 15-20-25 year
firearmenhancement that was by added by Public Act 91-404. effective January 1, 2000.
■■

12.

■

^

~

\

Effective January 1, 2010, Public Act 96-710 added subsection 730 ILCS 5/8-

J\ / 4(C)(1)(E), which addressed the concerns raised in Morgan by essentially acknowledging a

hv

$

/

'‘second degree” attempt.

A

13.

In 2011, when Defendant-Petitioner committed his offense, the attempt murder

statute, 720 ILCS 5/8-4(c)(E) (West 2010), contained a subsection that permitted defendants to
introduce mitigation evidence similar to evidence that would have reduced a first degree murder
charge to second degree murder. If defendants showed by preponderance of the evidence these

\

mitigating factors, the court would reduce the felony classification to a Class 1 felony and sentence
the defendant accordingly.
14.

The cases cited by Defendant-Petitioner in support of his proportionate penalty

argument, Morgan, 203 Ill.2d 470 (2003), People v. Sharpe, 216 Ill.2d 481 (2005), and People v.

V-

Douglas, 371 Ill.App.3d 21 (1st Dist. 2007), are not helpful to Defendant-Petitioner’s argument.
\

Subsection (c)(E) was not added to 720 ILCS 5/8-4 until January 1, 2010. See Public Act 96-710

(NQ
(effective January 1, 2010). Therefore, Morgan is inapplicable to Defendant-Petitioner. Sharpe

X

/

and Douglas are similarly unhelpful to Defendant-Petitioner because they do not discuss

CO

X^mitigating factors for attempt murder.
15.

'

Because this Court had jurisdiction to sentence Defendant-Petitioner, and because

haying
?6(T?OKlAb

■-------------——

PoMerj

{

tfe?o^eRA-T£‘.Zr.eeeJ

mfionn t-tj no^U1-/ -ohaS

noHjb&YtS—■

People v. Morgan, 203 III.2d 470 (2003)
786 N.E.2d 994, 272 III.Dec. 160

Looking to the language in subsection (a) of the attempt
statute, we noted in Lopez that the offense of attempted
second degree murder, if it existed, would require a
showing that the defendant intended to commit the
“specific offense” of second degree murder. See 720
ILCS 5/8—4(a) (West 2000); Lopez, 166 I11.2d at 449, 211
III.Dec. 481, 655 N.E.2d 864. Second degree murder, like
first degree murder, requires the intent to kill, but also
requires the presence of a mitigating circumstance which
reduces the defendant’s culpability and, accordingly, the
applicable sentencing range. 720 ILCS 5/9-2 (West
^ 2000). This court then reasoned that, “for an attempted
^ second degree murder, the defendant must intend the
presence .of a mitigating factor, which is an
-A impossibility,” Lopez, 166 Ill.2d at 449. 211 III.Dec. 481,
o55 N.E.2d 864.--------------------------------------------------nr
It was argued in Lopez that the failure to recognize
attempted second degree murder as an offense rendered
the attempt statute unconstitutional under the
proportionate penalties clause of the Illinois Constitution.
In support of this argument, defendants pointed out that, if
attempted second degree murder was not a recognized
offense, a person who acted with the intent to kill, but
failed to cause the death of the victim, would necessarily
be convicted of attempted first degree murder, a Class X
felony, punishable by a term of imprisonment between 6
and 30 years (720 ILCS 5/8-4(c)(l) (West 2000); 730
ILCS 5/5-8-1 (a)(3) (West 2000)), whether or not
mitigating circumstances existed. At' the same timef
however, it a person acted with the intent to kill and
succeeded in killing the victim, the person, having been
charged with first degree murder, would have the
opportunity *480 to reduce his culpability, as well as the
applicable sentencing range, by mtroducing evidence tnat
mitigating circumstances existed. If successful in proving'
the mitigating circumstances, the person would be
convicted of the lesser ottense of second degree murder-!"
Class 1 felony, punishable at that time by a term of
"Tmpnsonment between 4 and 15 years (720 ILCS 5/9—2(d) ~
ONesl 1932)) or, perhaps, a term of probation (730 ILCS
5/5-6-1 (West 1992)). Thus, defendants argued, thefailure to recognize attempted second degree murder as an
offense resulted in the possibility that a defendant would
be sentenced to a greater term of imprisonment if the
victim lived than if the victim died. Lopez, 166 Ill.2d at
450, 211 III.Dec. 481. 655 N.E.2d 864. On this basis,
defendants argued that the penalty for attempted first
degree murder was disproportionate to the severity of the
offense.
This court acknowledged in Lopez that, where mitigating
circumstances are present, a defendant who intends to kill

is subject to a greater sentencing range when the victim
lives than when the victim **1001 ***167 dies.
Nonetheless, this court held that the attempt statute was
not rendered unconstitutional. Although the sentencing
range for attempted first degree murder was broader than
the sentencing range for second degree murder, the
sentencing range for attempted first degree murder
encompassed the sentencing range for second degree
murder, t hus, we concluded, “the disparity m sentencing
range here is |~not] cmel, degrading, or so wholly
disproportionate to the offense committed as to shock the
moral sense of the community.” Lopez, 166 lil.2d at
450-51, 211 III.Dec. 481, 655 N.E.2d 864. Moreover, we '■
held that, in the absence of a proportionate penalties
'violation, the wording of the attempt statute, which
required us to hold that attempted second degree murder
could not exist as an offense in this state, was a matter
better addressed to the legislature. Lopez, 166 I11.2d at
449-50, 211 III.Dec. 481, 655 N.E.2d 864.
*481 Against this backdrop, we are now asked to consider
the validity of the attempt statute as amended by Public
Act 91—404. The Act creates a mandatory sentencing
scheme which increases the penalty for the offense of
attempted first degree murder based on the extent to
which a firearm is involved in the commission of the
offense. Pursuant to the amended statute, a defendant
whose actions demonstrate an intent to kill, but do not
result in death, is subject to sentencing ranges of 21 to 45
,
years, 26 to 50 years, or 31 years to natural life,
V\
depending on whether a firearm was in the defendant’s i \\
possession, discharged, or the cause of bodily harm. At HT
the same time, however, no provision has been made tor"
one charged with attempted first degree murder to
introduce"” mitigation evidence. Accordingly, ' the
mandatory enhanced sentencing ranges created by the Act
are applicable without regard to whether defendant acted
under extreme provocafion or while possessing ' laTT"
unreasonable belief that his actions were necessary for his
' defease,.

k

P

J

Defendant argues here, as he did before the circuit court,
that the attempt statute has been rendered unconstitutional
by the addition of this mandatory enhanced sentencing
. scheme. The circuit .. court / ruled - that, «because^the ,\
.amSi(latoi^^niimice5asentencingSLranges2are^aphh6'able>
A
jwhetheiggorfflfinotjiiadetehdaht^C acted funder ^extreme" £
pmvocatton»or*while ^possessing fan .unreasonable BeRgf ^ $
’'ThatahisgactiSns^wefe^necessary;: for; his defense, the" 3^
sentencing scheme, as set forth in subsections (c)(T)~(B), , i\
(c)(1)(C), and (c)(1)(D) of the attempt statute, violates the "fyT
proportionate penalties. clause of our state constitution,
which requires the* .legislature^..proportion-penalties,
“according 'to the seriousness of the offense.” Ill;

WEST LAW <g< 2019 Thomson Reuters. No ciaim to original U.S. Government Works.

<

6 '

V

S'
People v. Morgan, 203 III.2d 470 (2003)
786 N.E.2d 994, 272 III.Dec. 160
defendant in Hill, if convicted of the offense **1003
***169 charged, would be sentenced under any other
sentencing provision of the “15-20—25 to life” sentencing
scheme. Accordingly, this court held that the defendant in
Hill had no standing to challenge the constitutionality of
the sentences attached to the distinctly separate and
uncharged offenses set forth in sections 12-11(a)(4) and
12-11(a)(5) of the Code (720 ILCS 5/12-11(a)(4), (a)(5)
(West 2000)). Hill, 199 I11.2d at 445^16, 264 III.Dec. 670,
771 N.E.2d 374. See also People v. Falbe, 189 Ill.2d 635,
644, 244 III.Dec. 901, 727 N.E.2d 200 (2000) (defendants
do not have standing to challenge a statute as it might be
applied to others).
Unlike the situation in Hill, however, the charged offense
in the case at bar does not limit defendant’s exposure to a
single sentence. If convicted of the oltense charged,
defendant, in the case at bar, may be sentenced under any~
provision of the “15-20-25 to life” sentencing scheme,
depending on the facts proved at trial. Thus, we conclude
that the defendant here has standing to challenge the
constitutionality of the sentencing scheme in its entirety.
There is another matter which we feel compelled to
address, although the parties nave not raised it. Defendant
"argues, aricTThe circuit court found, that the attempt
statute, as amended, is unconstitutional under the
proportionate ~penalties~ clause when mitigating
circumstances exist which would have reduced the
underlying offense of first degree murder to second
degree murder. The circuit court found that, wheiT
mitigating circumstances are present, the mandatory
enhanced sentencing scheme subjects ~*a delendant
convicted of attempted first *485 degree murder to
penalties which are not set according to the seriousness of
the offense. In the case at bar, however, defendant is
challenging the"constitutionality of the statute prior to trial
and, thus, he has not yet alleged or established the
existence of statutory mitigating circumstances m this
case! thus, one might suggest that defendant*?
constitutional challenge comes too soon. We find-,
~however.
that
defendant’s
challenge
to
the
constitutionality of tne attempt statute at tnis juncture is
not premature.

t

0

$

151 Defendant’s challenge to the constitutionality of the
attempt statute is rootecT in the fact that attempted second
^degree murder is not a recognized offense in~ this" state'
and, barring its existence, (Fie presence ~of mitigating
circumstances is not relevant to a charge of attemptoclTirst ~
.■■•^^egree tnurder. TKusTas a practjdfP^f^r, 'the defendant
here, like every defendant charged with attempted first
degree murder...may be prevented from introducing
mitigating evidence at trial. In other words, because

e/1

defendant’s culpability cannot be reduced by proof that he
acted under extreme provocation or while possessing an
unreasonable belief that his actions were necessary lorlus
defense, there would be no purpose for introducing tfns~
type of mitigation evidence at trial and defendant may be
foreclosed from doing so. Moreover, even should \
defendant be able to introduce mitigation evidence at trial, j
because attempted second degree murder is not a *
recognized offense, the jury would never be instructed to
consider whether jhe mitigation evidence was sufficient to
reduce defendant’s cnlnability. Defendant would never
have the opportunity to have a jury decide whether he
acted under extreme provocation or while possessing an
unreasonable belief that his actions were necessary for his'
defense. For this reason, defendant may be in no better"
position after trial to argue the unconstitutionality of the
statute and the matter may *486 evade appellate review.
Further, denying defendant the opportunity to challenge
the constitutionality of the attempt statute at this juncture
would hamper **1004 ***17Q his ability to shape a
defense to the charge of attempted first degree murder.
Tlhus, we conclude that, in the case at bar, defendant’s
challenge to the constitutionality of the statute is nor
immature.
^■aMBaHak. —

__

—------------ ——--------------------- 1. .————

Cons titutionality

8J T
3

[61 |7| |8|

Turning now to the central issue in this appeal, we
consider whether the circuit court was correct when it
found that the attempt statute, as amended by Public Act
91-404, unconstitutionally violates the proportionate
penalties clause of the Illinois Constitution. The standard
by which we review a court’s ruling that a statute is
unconstitutional is de novo. People v. Carney, 196 Ill.2d
518. 526, 256 III.Dec. 895, 752 N.E.2d 1 137 (2001);
People v. Malchow, 193 IU.2d 413, 418, 250 III.Dec. 670,
739 N.E.2d 433 (2000). We begin our assessment with the
understanding that all statutes carry a strong presumption
of constitutionality. People v. Wright, 194 Ill.2d 1, 24,
251 III.Dec. 469, 740 N.E.2d 755 (2000); People v.
Maness, 191 I11.2d 478,483, 247 III.Dec. 490, 732 N.E.2d
545 (2000). To overcome this presumption, the party
challenging the statute bears a heavy burden of clearly
establishing its constitutional infirmities. People v.
Kimbrough, 163 I11.2d 231, 237, 206 III.Dec. 84, 644
N.E.2d 1137 (1994). Any reasonable construction which
affirms a statute’s constitutionality must be adopted, and
any doubt regarding a statute’s construction must be
resolved in favor of the statute’s validity. Burger v.
Lutheran General Hospital, 198 Ill.2d 21, 32, 259 III.Dec.

WESTLAW G 2019 Thomson Reuters No cia:r to otoR’a; o.S G

oe- isO'ks

8

People v. Morgan, 203 lll.2d 470 (2003)
786 N.E.2d 994, 272 III.Dec. 160

753, 759 N.E.2d 533 (2001); People v. Shephard, 152
111.2d 489,499, 178 lll.Dec. 724, 605 N.E.2d 518 (1992).

|9| |10|

*488 Initially, we acknowledge that the legislature
has the authority to set the nature and extent of criminal
penalties and that courts may not interfere with such
When analyzing whether a proportionate penalties
legislation unless the challenged penalty is clearly in
violation has been demonstrated, the ultimate issue is
excess of the very broad and general constitutional
whether the penalty attached to the offense has been set
)
limitations applicable. People ex rel. Carey v. Bentivenga, 11 .
by the legislature “according to the seriousness of the
j
83 Ill.2d 537, 542, 48 lll.Dec. 228, 416 N.E.2d 259
offense.” Ill. Const. 1970, art. I, § 11. In People v.
1
(1981). We further acknowledge that the legislative *
Lombardi, 184 I11.2d 462, 474, 235 lll.Dec. 478, 705
(.
purpose for enacting Public Act 91-404 is the deterrence
N.E.2d 91 (1998), we discussed three analyses which
of the use of firearms in the commission of offenses. The \!
courts have employed
when assessing
*487
presence of firearms during the commission of an offense
proportionality claims: (1) whether the penalty is cruel,
always poses an extreme danger, not only to intended
degrading or so wholly disproportionate to the offense
victims, but also to innocent bystanders. Thus, we will not
committed as to shock the moral sense of the community
second-guess the legislature’s determination that the
(People v. Bailey, 167 I11.2d 210, 236, 212 lll.Dec. 608,
■
protection of society necessitates the imposition of severe
657 N.E.2d 953 (1995); People v. Gonzales, 25 Ill.2d 235,
penalties whenever a firearm is used in the course of an
240, 184 N.E.2d 833 (1962)); (2) whether the described
'
offense. See Hill, 199 I11.2d at 457-58, 264 lll.Dec. 670,
offense, when compared to a similar offense, carries a
/ 771 NJE.2d 374. /Thus, we cannot say that, where'*
more severe penalty although the proscribed conduct
mitigating circumstances are not present, it would be'
creates a less serious threat to the public health and safety
/ cruel, degrading or so wholly disproportionate to "the
(People v. Davis, 111 I11.2d 495, 503, 227 lll.Dec. 101,
offense committed to subject a defendant who commits
687 N.E.2d 24 (1997); People v. Farmer, 165 111.2d 194,
jhe ottense of attempted first degree murder to mandatory
210, 209 lll.Dec. 33, 650 N.E,2d 1006 (1995); People V.
add-on sentences of 15 years, 20 years or 25 years tojifei
Wisslead, 94 Ili.2d 190, 194-97, 68 lll.Dec. 606, 446
depending on whether a firearm is present, discharged or
N.E.2d 512 (1983)); or (3) whether the described offense,
the cause of bodily iniurv/Nor would the imposition of
f* when compared to an ottense having identical element"
these penalties run counter to the general sentencing
^ ' carries a aiiierent sentence (People v. Lewis. 175 111.2d
directive that “the penalty for committing an attempt may
$ g 412, 417-18, 222 lll.Dec. 296. 677 N.E.2d 830 (1996)).
not exceed the maximum penalty for the offense
y, '• These three analyses provide the general framework for
attempted.” the penalty for first degree murder is a term'
\\) ^ evaluating whether a proportionate penalties clause
of imprisonment between 20 and 60 years (730 ILCS
violation has been established.
5/5-8-1(a)(1)(a) (West 2000)), which must be enhanced
by the addition of 15 years, 20 years, or 25 years to life,
In the case at bar, the circuit court, applying the first
depending on whether the defendant, in committing the
prong of the Lombardi test, held that the attempt statute,
offense, was in the possession of a firearm, discharged a
as amended by Public Act 91—404, violates the
firearm, or caused bodily injury or death as a result of the
proportionatepenaltiesclauseofourstateconstitution.nl.
use of a firearm (730 ILCS 5/5-8-1(a)(1)(d) (West
Const. 1970. art. I, § 11. More specifically, the circuit
. 2000)). We conclude, then, that the mandatory enhanced
court found that, because the statute does not permit the
sentencing *489 scheme added to the offense of attempted
introduction of statutory mitigating factors, the penalties
first degree murder does not make the penalty for
imposed on one convicted of attempted first degree
committing an attempt exceed the maximum penalty for
murder under the mandatory enhanced sentencing scheme
the offense attempted and, therefore, the penalty is not
I
are not set according to the seriousness of the offense. In jj
\ inherently unconstitutional
pother words, because the mandatory enhancements to the | " ... ^
sentencing range for an attempted. *71005 ***171 first f -- ^ "'LAs the circuit court recognized, however, the difficulty
degree "murder ..conviction are added without regard to -1 ^ stems
” from
! - the fact that the wording of the attempt statute
kr•whether'"'mitigating circumstances are present, the, l
Inakes the offense of attempted second degree murder an
^'penalties for that, offense are,'in some instances, so ft
inherent impossibility. For this reason, where the ottense
disproportionate to the offense .committed that they 11 r If
attempted would otherwise" constitute second degree
“shock the moral sense of the community.” ’ ” Bailey, 167 f
murder/(i.e., first degree' murder where mitigating
I11.2d at 236, 212 lll.Dec. 608, 657 N.E.2d 953, quoting
circumstances are present), the defendant cannot be
People v. Gonzales, 25 I11.2d 235, 240, 184 N.E.2d 833
corrvKh:e5~77f attempted" second degree murder, but must ^
(1962), quoting People ex rel. Bradley v. Illinois State
be convicted of attempted first degree murder.
Reformatory>, 148 Ill. 413, 421-22, 36 N.E. 76 (1894).
Accordingly, it is possible, as we acknowledged in Lopez, y
that the penalty for the attempt will exceed the maximum vJ

A

WESTLAW <g> 2019 Thomson Reuters No cla m :o orgi.nal OS. Government Works

35

9

*-

\&Kkh2>i T lO
People v. Morgan, 203 lll.2d 470 (2003)
786 N.E.2d 994, 272 III.Dec. 160

penalty for the actual underlying offense, i.e., second
degree murder. Under the statutory scheme, when a
"firearm is not involved in the commission of the offense,
the penalty for attempted first degree murder is not so
disparate that the statute is rendered unconstitutional by
^ the defendant’s inability to_ prove the existence of
' mitigating circumstances. However. **1006 ***172 when/
ja firearm is involved in the offense and the mandatory,
^enhanced sentencing scheme applies, the penalty ranges;
^ for attempted first degree murder .far exceed the penalty^
/Pi ..range for second degree murder Because tke enhanced
ft' 'penalties apply without regard to the defendant’s ability .to
I,t y prove the existence of mitigating circumstances, we?
^'conclude that tE& attempt statute is rendered
u
t unconstitutional, j
:
!
'

her companion is unlawful, her
decision to kill him with a firearm
is understandable since most
women will not fare well in the
attempt to kill a man with a knife or
a club. This is not an unusual
situation and several women have
been charged with murder under
similar circumstances in Central
Illinois in the recent past, % *!* 4s Jn
this example, if the woman is
successful
in
killing
her
companion, the mitigation factors
can be raised, and there is some
possibility that a jury could return a
verdict of [sjecond [djegree
[mjurder. But * * * if the woman
fails to kill her companion, but
does inflict serious bodily harm on
him, she faces a minimum sentence
of 31 years. She has *491 made a
terrible mistake in not making sure
that she has killed her companion!”

When Public Act 91-404 was enacted, the wording of the
general attempt provision was not changed andj
accordingly, the offense or attempted second degree
murder remains an inherent impossibility. Moreover, no,
provision was made for the introduction of mitigating
*490 evidence that would lessen a defendant’s culpability
tor an attempted first degree murder. Instead, the Act
created a mandatory enhanced sentencing scheme that
substantially increases the penalty for attempted first
degree murder when a firearm is involved in the offense?
/ Under the amended statute, then, a defendant whose
actions would have resulted in a conviction for second
degree murder if the victim died, must be convicted of
attempted first degree murder if the victim lives. In
/ addition, when a gun is used in the commission of the
offense, the defendant will be subject to the mandatory
enhanced sentencing scheme. As a result, based on the
statute as it is now written, where mitigating
circumstances exist the penalty for an attempt to commit
murder involving the use of a firearm will always be
greater than the penalty for the underlying offense
^committed, i.e., second degree murder.

As the above example makes clear, under the current laws
of this state, the defendant who intends to kill and, while
using a firearm, succeeds in killing his or her victim has
the opportunity to present mitigation evidence, the proof
of which will result in a conviction on the lesser offense
of second degree murder and, accordingly, exposure to a
/ sentencing range of 4 to 20 years, If the victim does not
Vdie, however, the defendant is foreclosed from presenting
'mitigating evidence in the hopes Of securing a conviction
!on a lesser offense and, correspondingly, a lesser
sentence. Iln fact, where mitigating circumstances are
present, the defendant who possesses a gun with the intent
to kill and who takes a substantial step toward the
commission of the offense of murder will be subject to a
sentencing range where the minimum **1007 ***173"
sentence is one year greater than the maximum sentence
available if the same defendant actually fired the gun and'
caused the victim’s death.

The inequity of the situation created by the amended
attempt statute is graphically demonstrated by the
example proposed by the circuit court judge in this case.
The court stated:

“Assume that we have a woman
who has suffered physical abuse at
the hands of her husband or
boyfriend for many years. After
growing tired of this abuse, she
decides to stop the cycle of abuse
by killing her companion and
decides to kill her companion with
a firearm. While her decision to kill

r

f
*
>

,u:
1
\

In sum, we find the attempt statute (720 ILCS 5/8-4
(West 2000)), as amended by Public Act 91-4U4, is
" unconstitutional because it permits a defendant convicted J
•of attempted first degree murder to be subject to penalties
that are not set according to the seriousness ot the ottense.
j The amended statute provides that a defendant who
^
f intends to kill but fails to cause the death of his victim
'
shall be convicted of attempted first degree murder,
whether or not mitigating circumstances exist, and shall
l be sentenced to a term of imprisonment between 6 and 30/

WESTLAW ©2019 Thomson Reuters. No claim to original U.S. Government Works.
i>

1

*

10

r

6

%

192

213 ILLlNOrS DECISIONS

723 N.E.2d 224

was unconstitutional rendered offense void .(Richard S. London, Staff Atty., State’s
ab initio and required vacatur of convic-' Atty. Appellate 'Prosecutor, Elgin,' Lisa
lions, and (2) State could not amend chary- Antie Hoffman, Asst Atty. Gen), Chicago,
ing instruments on appeal.
State’s Attorney Lake County, for the
Affirmed in pari; and reversed in part. People in No. 85524.
. •
Kathje, j., dissented and tiled opinion.

.. Barbara R. Pasclien,- Asst,.State Appel­
late Defender, Elgin, for Gomeqndo. Telfez-ValenciamNo.,85524. .

1. Assadlf and Battery G=>48
Determination by Supreme Court that
Lawrence J. Essig) Asfit/State’ Appellegislative enactment through which of- late Defendfer, .'Springfield, for Rbbbie .J.
fenae of predatory criminal sexiial assault Moore in No. 86532.
was created was unconstitutional. based on
■
Lisa Aniie' Hoffman, Asst. Atty. Gen.,
violation of single subject rule of Stale
Constitution, rendered offense' void ab ini- Chlca&°> State’s Atty. Vermilion County,
tio, and required .vacatur of-convictions Danville, State's Attys. App. Proa., Springfield, for the People in No. 86532.
obtained under statute!
2. Indictment and Information ‘£=159(1)
When a defendant is convicted of an
offense later held unconstitutional. State
may not amend the charging instrument,
on appeal. S.H.A. 725 ILCS 5/111-5.
3. Indictment and Information ©=’162
State could not amend instruments
charging defendants with offense of predalory criminal sexual assault on appeal following defendants’ convietinns, where durmg pendency of which enactment creating
offense had been held unconstitutional an
violative of single Subject rule, and offense
was thus rendered void ab initio; proposed
amendments sought to cure a substantive
defect and were not mere formality, as
crime charged had been rendered hpnexistent at time defendants had committed
charged acts, S.H.A. 725 ILCS 5/111-5.
4. Indictment nrid Information <£»162
Formal -defects in a charging instru­
ment may be amended hy the State at any
time. - S.H.A. 725 -ILCS 5/111-5.

Justice HEIPLE delivered the opinion
of the court:
- Both defend ants in this consolidated ap­
peal were convicted of-predatory criminal
sexual assault of a child. While defen­
dants’ respective appeals were pending,
this court, invalidated Public Act 89-428,
which created this offense. Subsequently,
in case No. 85524, the appellate court re-"
versed defendant Gomecindo Telfex-Valencia’s conviction, holding that the State
could not amend the charging instrument
on appeal. 295 IH.App.3d 122, 229 IJl.Dee.
634, 692 N.E.2d 407. However, the appeh
late court in No. 85532 affirmed defendant
Robbie J. Moore’s conviction, allowing the
State to amend the charge on appeal to
aggravated criminal sexual assault. •• 295
DI.App.3d 676, 230 IlliJete. 553, 694 N.E.2d
184. We consolidated the two cases, and
now hold that, when a defendant is convict­
ed of an offense later held unconstitutional,
the State may not amend the charging
instrument on appeal.

5. Criminal Law <S»113G.3
Indictment and information <s=>56
'BACKGROUND" ;
Defect caused hy charging an offense
Defendants were both charged with and
based upon a statute not in effect when the convicted of predatory criminal sexual asalleged offense occurred is fatal, rendering sault of a child for acts committed in the
the entire instrument invalid, and warrant- spring of 1996. Subsequent to defendants'
ing reversal of conviction for offense.
convictions, and while their appeals were

f
1
••j

4

I •

I

■&

;$
■ S

*

I.
IS
*

>!5

i

iJ

•s
:V

3
•!
i
I
i

723 N.E.2d 225

PEOPLE v. TELLEZ-VALENCIA

193

L'lieiiZO IlLDtc. 191. 723 N.E.Jd 223 (III. 1999)

pending, ’this.court, hdthth'at Public
89-428 mis enacted in violation of the sin-

dlMwa*rendered void ab.mUin; that is.
it .wan'.as if the -law. never existed. See

!i Gererf!> 135 3U-M:38d> 390'143

'T’SyantTdeclafed'the AcTuhconstiSiliohS JH.Dec. 767, 653 N.E.2d 281 (1900).__Ab;—
4r7«ra3a5y~>a^
the General Assembly later reenr
'TiraTinraanfi!^
aetdd the otfeiise; this reenactment hail the
■ InOTTliHoitiY llm-eafter, the" ikncrai regejra£ crsatingjjt e.ntireljrnew hrnhinal_ ^
v
AiiS^pSTIiBIkScrgWfi^Treen- Matnte. • ESbK^dS&pirs charging in- \
V ^Tte^r~oHSEtaiFcrimi;ral sfrumentthus MM & «tate an offense |

^ - mai uMH or* dfflarKbiie^JS- betetoe fte ®b#ute under wh,ch csch ™

"W Si not become
tmand P^ecuted wan not m effect
til May 29,1996,.and by its language,:does when the alleged offenses occurred. Ac*• not apply to offenses occurring before that cordingly, defendants convictons for pred,
ktory criminal sexual assault of a child
On.appeal, both defendants argued that
then- convictions were invalid because they
wero based upon charging. instruments
that failed to state an offense. . The Second District of the Appellate Court , reversed the conviction of defendant TellezValencia, holding that, only the grand jury
could make a subsUmtive change to the
defendant’s indictment. 295. IU.App.3d at
127 229 Ill .Dec. 634, (592 K.E^d 407. The
Fourth District of the Appellate Court,
however, reached the opposite result in
defendant Moore’s case, holding that the
State could amend the trial court's judgment and sentencing order to change the
name ofthe offense of which defendant
wasconvictftd from predatory criminal sexual assault of a child to aggravated mininal sexual assault, thereby effectively
amending defendant's indictment' on- appoal. In so holding,' the court in Moore
noted the identical nature and •elements of
the two offenses, and’ reasoned that, such
an amendment constituted a mere formality, thu3 affirming the conviction. 295 Ill.
App.3d at 683-84, 230 Hl.Dec; ’ 553, '694
NZ.2d 184. We granted leave to appeal
in order to resolve this conflict in the
appellate court.. .
ANALYSIS11]. When Public.Act .89-428 was held
unconstitutional by this courts ruling in
Jokmon v. Edgar, 176 IU.2d.499, 224 III.
pec. 1, 680 N.E.2d 1372 (1997). the offense
of predatory criminal sexual assault of a

cannot -land,
[2,3] The State argues that amendment of defendants'charging instruments
on appeal to-change the name of the oltense charged from predatory criminal
sexual assault of a child to aggravated
criminal sexual assault is merely a formality because the elements, of. the two enmea,
as well as the .statutory, language and penallies as applied to defendants, are ldentical. The- State reasons that- defendants
are not prejudiced in any way by such an
amendment because each was apprised of
the nature and elements from which to
prepare a defense, regardless of the spccific name given-to the alleged criminal act.
[4,5] While wo acknowledge that forma] defects in a charging instrument niay
be amended by die State at any time (see
725 ILCS 5/1A1-5 (West 1998))', we disagree'with the State's characterization of
the proposed amendment, in the cases at
bar as a mere formality. The .committee
comments Jo section 111-5 of the Code of
Criminal Procedure of 1&63 specifically ex'elude failure to charge’s crime from those
defects in a charge considered merely formal and which may be cured by amend­
ment at any time,- instead labeling this a
substantive defect. See 725 ILCS frill-5,
Committee Commcnts-1963 (Smith-Hurd
1992). Further,, the defect caused -by
charging an offense based upon a statute
not in..effect when the alleged offense occurred is fatal, rendering the entire.instrument invalid, and warranting reversal of

CSjC+i-l & i > j ^3
People v. Blair, 2013 IL 114122 (2013)

both statutes.

the contrary are overruled.

1 33 Defendant argues, however, that under our decision
in Manuel, the legislature may not revive an
unconstitutional statute through amendment of a different
statute. Manuel does not stand for such a broad
proposition of law. In Manuel, we rejected the State’s
argument that an amendment to certain sections of the
Illinois Controlled Substances Act (Ill.Rev.Stat.1979, ch.
56 A, 1) 1401(e), (f)) could revive a different section of
that act which “this court subsequently holds
unconstitutional.” (Emphasis added.) Manuel, 94 I11.2d at
244, 68 Ill.Dec. 506, 446 N.E.2d 240. In other words, the
legislature could not have intended revival of a statute
which had not yet been declared unconstitutional. See
Malone, 2012 IL App (1st) 110517, U 88, 365 Ill.Dec.
365, 978 N.E.2d 387. In contrast to the sequence of events
in Manuel, Public Act 95-688 was enacted after, not
before, this court declared the armed robbery sentencing
enhancement unconstitutional.

I) 36 We recognize that the legislature could have signaled
its intent to revive the armed robbery sentencingenhancement by amending the armed violence statute and
simultaneously reenacting the armed robbery sentencing
provision. As already discussed, however, reenactment of
the armed robbery sentencing provision was not required
as a matter of law because Hauschild did not render the
sentencing enhancement nonexistent; it rendered the
sentencing enhancement unenforceable.

11 34 To the extent that Manuel could be. read as holding
that revival of a statute cannot be effected through
amendment of a different statute, Hauschild effectively
overruled Manuel. As discussed above, Hauschild
considered the effect of Public Act 91-^404 on the offense
of armed violence predicated on robbery, which Lewis
held violated the proportionate penalties clause when
compared to armed robbery. Hauschild, 226 I11.2d at 84,
312 Ill.Dec. 601, 871 N.E.2d 1. Hauschild held that
Public Act 91-404 revived that armed violence offense
“when it amended the sentence for certain armed
robberies.” Id. Thus, Hauschild recognized that a statute
held unconstitutional under the identical elements test for
proportionality could be revived through amendment of
the comparison statute. Although defendant here notes
that Public Act 91-404 also amended the aimed violence
statute, that fact was immaterial to our analysis in
Hauschild and was not a basis of our holding in that case.
Moreover, the amendments made to the armed violence
statute in Public Act 91—404 did not help cure the
proportionality violation identified in Lewis.
35 The issue we address in the present case is analogous
to the issue addressed in Hauschild, and we necessarily
reach a similar result. Just as Public Act 91-404 revived
the offense of aimed violence based on robbery by
A amending the armed robbery statute, we now hold that
Public Act 95-688 revived the sentencing enhancement
/
**135 *84 in the armed robbery statute by amending the
armed violence statute. In this case, as in Hauschild, the
legislature revived the unconstitutional statute by curing
\
the proportionality violation through amendment of the
comparison statute. Appellate court cases which hold tn

H 37 Furthermore, the legislature’s intent to revive the
sentencing enhancement is plain enough, even in the
absence of reenactment of that provision. As our case law
illustrates, this court has had an ongoing dialogue with the
legislature concerning the constitutionality of variouT
statutes increasing the penalties for certain felonies when
“the offender possesses or uses a firearm during the
comraission ot the offense. See Sharpe. 216 Illb.d at'
)
490-523, 298 Ill.Dec. 169. 839 N.E.2d 492 (discussing
the history of our proportionate penalties clause
jurisprudence). Public Act 95-688 was simply the latest
S\
reaction to a declaration from this court concerning the
constitpfionalhyofoneo£these statutes^nacted~within T
tew months'!)! tlauschild, Public AcT9~5^688~not only
remedied the proportionate penalties violation identifiecP
m Hauschild, it did so in a manner that tracked our I V
Analysis in Hauschild. We indicated in Hauschild that'' ■"
although the legislature had previously excluded armed
robbery as a predicate felony for armed violence, it had
not excluded robbery, and, therefore, we could proceed
with an identical elements analysis. Hauschild. 226 I11.2d
at 85, 312 Ill.Dec. 601, 871 N.E.2d 1. Public Act 95-688
amended the armed violence statute so that robbery can
no longer serve as a predicate offense for armed violence.
’I 38 Although discerning legislative intent can sometimes
be a “thorny task” (O 'Casek v. Children’s Home & Aid
Society of Illinois, 229 U1.2d 421,441, 323 Ill.Dec. 2. 892
N.E.2d 994 (2008)), the legislature’s intent when it
enacted Public Act 95—688 is clear. To the extent any
residual doubt exists, it is erased through examination of
the legislative history of Public Act 95-688. See 95th Ill.
Gen. Assem., Senate Proceedings, July 26, 2007, at 8
(statements of Senator Cullerton) (stating that the bill
underlying Public Act 95-688 addresses an Illinois
Supreme Court decision that held the legislature violated
the proportionate penalties clause and that the bill
“corrects that”).

People v. Blair, 2013 IL 114122 (2013)
986 N.E.2d 75, 369 III.Dec. 126

H 39 CONCLUSION
40 For the reasons stated, the trial court properly
sentenced defendant to an enhanced term pursuant to
section 18—2(b) of the armed robbery statute.
Accordingly, we reverse the judgment of the appellate
court, and affirm the judgment of the circuit court.

Chief Justice KILBRIDE and Justices FREEMAN,
THOMAS, CARMAN, KARMEIER, and BURKE
concurred in the judgment and opinion.
All Citations
2013 IL 114122; 986 N.E.2d 75,-369 Ill.Dec. 126

T| 41 Appellate court judgment reversed.
42 Circuit court judgment affirmed.
End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

•

46 N.K2d 241

507

PEOPLE iy. MANUEL
Cite asrSup., 68 IH.Dec. 506,446 N.E.2d 240

n June 9, 1981. The trial, court granted magnitude (People v. Johnson (1982) 106 j
ach defendant s motion to dismiss, holding Ill.App.3d 759, 765-66 62 Ill.Dec. '551 436 J
hat section 404 was unconstitutional under N.E.2d 757), or, alternatively, is seve.-able ^
his court’s op nion in People v. Wagner from the remainder of the statute (People ,
19^2), 89 111.21 308, 60 Ill.Dec. 470, 433 ~vTBurks (1982)7708 lll.App.3d.433, 481, hi ]
I.E.2d 267. The State appealed directly - Ill.Dec. 57, 438 N.£.2d'i’37h)': l, As:lefer;daht J
iere pursuant ;o our Rule, 603 (87.111.2d R. points out, the difficulty with' the gjate’s" i
03). We consolidated the causes.
^position ..concerning the nonappl'icaiiiill v~ iir
Warmer to these prosecutions is that section
■ [1] The defendant in Wagner had been 404 was not amended by—the_legislafnre~
onvicted of delivery of a noncontrolled Public Act, 81-583, upon which the (State
ubstance represented to be a controlled relies, specifically amended sections 401 and
ubstance (heroin) which was punishable 402 of the Illinois Controlled Substances v
mder section 404 as a Class 3 felony with a “Act, and, as noted in People v. Bradley
lossible $15,00C fine. At the time of Wag- (1980), 79 I11.2d 410, 418, 38 Ill.Dec. 575, 403
A
ier’s offense, delivery of an actual Schedule N.E.2d 1029, thereby remedied the unccnstiV or V controlled substance was punisha- tutional penalty disparity that had previile as a Class C. felony with a possible fine ously. existed between delivery and pdssesf $10,000 for the Schedule IV offense and gion_of the same type of controlled ,sub5,000 for the Schedule V offense. (Ill.Rev. stanceT While we agree that the fortu tous
itat.1977, ch. !i6y2, pars. 1401(e), (f).) A effect of the amendment was faTchango'the
najority of this court held, that because statutory scheme so as ,to remedy the unection 404 punished delivery of the non- constitutional classification addresse '_in
ontrolled substance more severely than de- ” Wagner, we cannot agree that the auen3-~~~
ivery of a controlled substance, it “is hot "mifft to" sections 401 and 402 can opera! e~to7"~ _
easonably designed to remedy the evil in essence, revive a different statute vhich
vhich the legislature determined to be a this court subsequently holds uncons f,itu-~
p-eater threat '-;o the public” (89 Ill .2d’ 308, tional.
113,, 60 Ill.Dec. (470, 433 N.E.2d 267) and, as,
[2] .When a statute is-held unconstitu-1\
uch, violated the due process , clause of the
tional in its entirety, it is void ah initio, see, l\
llinois Constitution (Ill. Const.1970, art. I,
e.g., Van Driel Drug Store, Inc. v. Mahin |\N
ec. 2). Although not applicable in that
- (1970), 47 I11.2d 378, 381-82, 265 N.E.2d',659; '
:ase, the court; ifttgdJ;hat_theJe3shWure,_on
People v. Clardy (1929), 334 Ill. 160, 163-64,
?eptember~147^'l979, by. Public Act 81-583,
165 N.E. 638; Mills v. Peoples Gas Light &
imended..sections 401(e) and (f) to make’
Coke Co. (1927), 327 Ill. 508, 535, 158 V.E. /
ielivery of a Schedule IV or V controlled
- 814; Quitman v. Chicago Transit Auth ority /
ubstance a Clajs 3 felony. The permissible
- (1952),\348 Ill.App. 481, 109 N.E.2d 373 16 ^
ines remained unchanged.
__
,
Am.Jur.2d - Constitutional Law s^c. ; 256
The State argues here, relying on two (1979)), and it is clear that defendants ,'iere
lecisions of the appellate court (People v. cannot be prosecuted under an uncons'tituBurks (1982), 1118 Ill.App.3d 433, 64 Ill.Dec. tional act (e.g., People v. Meyerowitz (l!;:75^
>7, 438 X.E.2d; 1376, rev’d (Feb. 18, 1983), bTTIi:2d~20Q,335 N,E.2d 1). Had the ligl£~
Uo. 57261; People v. Johnson (1982), 106 " lafure'amended section 404, as'it now,has
Ql.Appl3d’759, 62 Ill.Dec. 731, 436 N.E.2d (Pub. Act 82-968, eff. Sept. 7, 1982))^e
(571.''that, Wagner does not preclude would then have been in a position to eu ami prosecution under section 404J)as_amend- ine anew its validity, within what would |
id” because (hat decision is_applicable then be a new statutory scheme. At: the 7
inly to the, statutory scheme in effect at time of these offenses, however, section 404
die time of that,defendant's offense. Fur- Jiadjot, been amended, and we there ;ore~
:herT the~Sfate'~subrnits that the continued, hold that Wagner precludes these pros icu;ine disparity dbes not rise to constitutional tions. To the extent that the appe late

”

<n

H'

pO'SS .h'l-P. .

fptciu^e '■

i

__** • _
\

\

i

/

/

I

%
I

?

X

'N.;

5
9MM8l9T.690,C99S92, 9°-6MC°nSt,tutio”- P-A.s

“Crimina, Offenses", P.A. 90-590 „ t“e offtX'Tc.i^"1 P“ 2 °f^

CRIMINAL OFFENSES
luring or attempted tog Jr^Vfecie e^X^rfoteftanVlSf0" 'hat

uniTr’°srh0riZe

Wer °f &« *°

<*«'-g or attempted tennis fa

eVidcnce 0f f ^(iT

n an

/ (P

visitation interference^ stetute^roWb^g^eT1181 Ct°de °f2°12 The provislon of the unlawful C .,a,y
Illinois Marriage and DissolJS^o?^^1 a?
^ ^pt SanCtl0QS Under the
interference was an undue infringement on the court’s inhe T™011 f°r unlawftil visitation ^ \~1
powers provision of Article II Section 1 of the nr ■
^ierent Powers under the separation of
January .,20,0, removed the ’offendmg provrston T^TwTen.mI,Ud

88-680 were unconsrituriona/becautep'h? “f 2012' Pr',v,'l,»ls amended by P.A.

^o-

Ill.App.3d 975 (2nd Dist 19991 and P?

/

n„€-™Sa!:
^

235 (3

Dist. 1998), People v. Williams 302

Provision of intimidation statute making it an off ^ f’h*1' 12'6)' Criminal Code of 2012.
how minor or insubstantial is unconshtLiona^Tfh threatet!to CJ°mmit any cnme no matter
Amendment to the United States Constitution U S
°^Joad m VIolatlon of the First
Judicial Circuit, 624 F.Supp. 68 (N D Ill 19853
V' C"rU,Y C°Urt °fthe 1?th
limited the applicability of this provisiofao felonies ^ndClaas^misderneanors^6 ^
^

TOs Report uses Xtrintelil 'coteof2012-^11 as'tMc 1 "mmci1 lhe Criminal Code of 2012 by P.A, 97-1108
found oniine a, ht^lga.goWeo^s.o,^

Code re-wr,«e c„ be
53

Page 8 of27

HN1S& Local Officials, Customs & Policies
When an official authorizes constitutionally inadequate procedures, the official's liability
is not negated by a showing that he or she did not intend to deprive the plaintiff of due
~7f process of law. Any state-of-mind requirement of the due process clause is satisfied if
the official authorizes a system with the intention that it will operate to deprive persons
of life, liberty, or property, whether or not he intends the deprivation to be without due
rP ^
process of law. There is no authority for the proposition that an intentional deprivation of
life, liberty, or property does not give rise to a due process violation because the failure
to provide due process was without fault.
More like this Headnote
7<
Shepardize - Narrow by this Headnote (33)

❖s

Constitutional Law > Bill of Rights ▼ > Fundamental Rights ▼
> Cruel & Unusual Punishment-v
Constitutional Law > ... > Fundamental Rights▼ > § Procedural Due Process ▼

>

Scope of Protection s
HN16& Fundamental Rights, Cruel & Unusual Punishment
Delegating decisionmaking authority and discretion in exercising that authority is not in
and of itself indicative of constitutionally inadequate process. There are times, in fact,
where delegation of discretion is imperative to the functioning of an efficient and fair
system, whether in the prisons or elsewhere. Procedural due process requires that an
inmate with a challenge to the calculation of his release date promptly be listened to by
someone having authority to decide the challenge or pass it on for further review and
decision; due process does not, however, require that records officers refer every
argument made by an inmate, regardless of its plausibility, to a deputy attorney
general. The cost of such a requirement would far outweigh its marginal utility in
reducing the risk of overstays. Q. More like this Headnote
Shepardize - Narrow by this Headnote (19)

❖3

Constitutional Law > ... > Fundamental Rights▼ > § Procedural Due Process ▼

>

i

Scope of Protection ▼
HN17& Procedural Due Process, Scope of Protection
Although it is appropriate to inquire whether custom and practice has displaced the de
jure system, custom and practice can provide a basis for liability under this theory only
if the official can realistically be said to have approved the displacement of the de jure
system with whatever the offending custom or practice is found to be. Although that
approval need not be expressly articulated, in order for the official to be held responsible
for an "established state procedure" his or her conduct must in some manner
communicate approval of that procedure to others. ^ More like this Headnote
Shepardize - Narrow by this Headnote (0)

https://doc-advance.lexis.com/documentprint/documentprintclick/?pdmfid=1512960&crid...

9/18/2020

Page 5 of 17

Shepardize - Narrow by this Headnote (11)

Al

Criminal Law & Procedure > ... > Murder-*- > § First-Degree Murder-*
> General Overview-*
Criminal Law & Procedure > Criminal Offenses-* > Homicide, Manslaughter & Murder-*
> General Overview •*
Criminal Law & Procedure > ... > Homicide, Manslaughter & Murder-* > §

:i

Voluntary Manslaughter-* > General Overview-*
HN6& Murder, First-Degree Murder
The legislature amended § 9-2 of the Criminal Code of 1961, III. Rev. Stat. ch. 38, para.
9-2 (1985) in 1986. This revision renames the offense of murder and abolishes
voluntary manslaughter. Murder is now known as first degree murder, and voluntary
manslaughter has been replaced by second degree murder. ^ More like this Headnote
Shepardize - Narrow by this Headnote (0)

Criminal Law & Procedure > ... > Murder-* >

First-Degree Murder-*

> General Overview-*
Criminal Law & Procedure > ... > Homicide, Manslaughter & Murder-* > Murder-*
> General Overview-*

I

Criminal Law & Procedure > ... > Murder-* > y) Second-Degree Murder-*
> General Overview-*

\

HN7& Murder, First-Degree Murder
Second degree murder is first degree murder plus the existence of one of the two
statutory mitigating circumstances. First and second degree murder are similar in that
they have the same mental states. What distinguishes the two offenses is the presence
of the mitigating circumstance, which reduces first degree murder to second degree
murder. Ho.wever. the mitigating circumstances are not elements of the crime. In fact,
fj[-gt- anH gprnnri degree murder have the same elements. Second degree murder is
simply a lesser mitigated orrense7a concept new to Illinois'.
More like this Headnote
Shepardize - Narrow by this Headnote (4)

❖2

Criminal Law & Procedure > ... > Murder-* > §| First-Degree Murder-*
> General Overview-*

https://doc-advance.lexis.com/documentpriniydocumentprintclick/?pdmfid=1512960&crid...

9/18/2020

1
t

/

1u
506

68 ILLINOIS DECISION:

1. Drugs and Narcotics @=43
Although following decision that sec­
tion 404 of Controlled Substances Act vio­
lated due process as punishing delivery of
WARD, J., took no part in the considera­ an uncontrolled substance more severely
tion or decision of this case.
than delivery of controlled substance the
legislature amended sections 401 and 402 to
make delivery of a Schedule IV or V con­
(o IkeysumbirsystemS
trolled substance a class 3 felony the
amendment did not revive section 404 so as
to permit subsequent prosecution thereunder before the legislature specifically
amended that section; disapproving People
94 U1.2g 242
v. Jolmson, 106 lll.App.3d 759, 62 Ill.Dec.
446 N.E.?d 240
731, 436 N.E.2d 757. S.H.A. ch. 56'/2,
The PEOPLE of the State of
HH 1401,1401(e, f), 1402,1404; S.H.A. Const.
Dlinois, Appellant,
Art. 1, § 2; U.S.C.A. Const.Amends. 5, 14.
v.
2. Statutes @=>63
Michael MANUEL, Appellee.
When a statute is held unconstitutional
in its entirety it is void ab initio.
The PEOPLE of the State of
Illinois, Appellant,
Randy E. Blue, Deputy State Appellate
V.
Defender, Fifth Judicial Dist., Mount Ver­
Michael HUSKEY, Appellee.
non, for defer.dants-appellees; John Clem­
ons, State’s Arty., Murphysboro, of counsel.
The PEOPLE of the State of
Tyrone C. Fahner, Atty. Gen., State of
Illinois, Appellant,
Ill., Michael B. Weinstein, Ellen M. Flaum,
v.
Asst. Attys. Gen., Chicago, for appellant.
William J. CLINTON, Appellee.
UNDERWOOD, Justice:
Nos. 56482; 56662 and 56663.
Defendants Michael L. Manuel (cause No.
56482), Michael Huskey (cause No. 56662),
Supreme Court of Illinois.
and William J. Clinton (cause No. 56663)
Feb. 18, 1983.
were charged by information in the circuit
court of Jackson County with violating sec­
tion 404 of the Illinois Controlled Sub­
Defendants were charged with violat­ stances Act (Ill.Rev.Stat.1979, ch. 56'/2, par.
ing section 404 of the Controlled Substances 1404). Manuel was charged with two
Act. The Circuit Court, Jackson County, counts of delivery of a nohcontrolled sub­
Richard E. Richman, J., dismissed on consti­ stance represented to be a controlled sub­
tutional grounds, and the State took direct- stance (cocaine) allegedly occurring on
appeal. The Supreme Court, Underwood, March 18 and 20, 1981; Huskey was
J., held that although following decision charged with two counts of delivery of a
holding section 404 unconstitutional the leg­ noncontrolled substance represented to be a
islature amended sections 401 and 402 the controlled substance (amphetamine) al­
amendment did not revive section 404 so as legedly occurring on February 3 and 13,
to permit prosecution thereunder before the 1981; and Clinton was charged with one
legislature specifically amended that sec­ count of delivery of a noncontrolled sub­
tion.
stance represented to be a controlled sub­
Affirmed.
stance (amphetamine) allegedly occurring
tion in this case is suspension for three
months.
Respondent suspended.

■-V

’ -C.

446 N.E.2d 240

/

/

482

4-0

$6e fits
300 ILLINOIS DECISIONS

844 N.Ii.2d 92i

■;7a

844 N.E.2d 926

PERLSTEIN v. WOLK
Cile us 300 III.Dcc. 480, 844 N.r.2d 923 (III. 2006}

. Againsl this statutory backdrop, we consider the nature and timing of the malpractice action at issue here.
II.

:
I

s:

Si

' lM;/

The Malpractice Action

the date Deena Perlstein purportedly had
knowledge that the trust would not be
funded), and the six-year rejjose period
would have expired October 23, 1998 (six
Years a^sr the date defendants prepared
^he will). Plaintiffs filed their legal malPractice action in the circuit court of Cook
County on January 8, 3998, clearly within
the limitations and repose periods.'

if
5
J
*
§

Plaintiffs’ cause of action for legal maljjractice stems from defendants’ preparation, on October 23, 1992, of the last will
and testament of Lawrence A. Perlstein,
Deena Perlstein’s husband. Generally,
plaintiffs alleged that defendants negli­
Defendants moved to dismiss the comgently prepared the will, thereby prevent- plaint with prejudice, arguing that it was
ing the Lawrence A. Perlstein Trust from time-barred. See 735 ILCS 5/2-Gl9(a)(5)
disbursing $300,000 to Scott Schneider, (West 2002). According to defendants, beDeena Perlstein’s son, and causing other cause Best declared Public Act 89-7 uncon­
damages.
stitutional, the act was void ab initio. In
Lawrence Perlstein died on September effect, Public Act 89-7 “never was.” Thus,
23, 1995. On October 16, 1995, the circuit defendants argued that the exception to t
court of Lake County admitted the will to the statute of repose set forth in section
probate and issued letters of office to Dee- 13-214:3(d), which Public Act 89-7 sought
na Perlstein. On January 8, 1996, the
to remove, “never ceased to have validity.”
attorneys for the trustees of the Lawrence Under subsection (d), plaintiffs cause of
A. Perlstein Trust rendered an opinion action should have been commenced “withthat the trustees should not fund the trust m the time for filing claims against the * *’
on the ground that Lawrence Perlstein estate or a petition contesting the validity
had not properly exercised the power of of the will of the deceased person, which-.appointment..in his„unll.-.J)n>Januaj-y 26, ever is later.” • 735- 11-JtS—o'i;-i-214.J(d;
1996, the trustees notified Deena Perlstein (West 1994). In this case, the later date
that the trust would not be funded.
was the claims-filing date: April 26, 1996.
At the time Deena Perlstein learned ^ee ^5 ILCS 5/18-3 (West, 1996). In
that her late husband’s trust would not be defendants’ view', plaintiffs’ complaint, filed
funded, the changes wrought by Public Act January 8,1998, was 20 months late.
89-7 had been on the statute books for
Plaintiffs countered that the void ab inialmost a year. As noted above, following tio doctrine does not govern this case,
the passage of Public Act 89-7, a two-year Plaintiffs relied on Illinois case law holding
limitations period and a six-year repose that where a legislative change in a statute
-.ifperiod applied—without exception—to all of repose would othei-wise instantaneously
attorney malpractice actions. See 735 bar a plaintiffs cause of action, the plain1LCS 5/13-214.3(b),
(c) (West .1996). Ac- tiff will be allowed a reasonable period of
x
„ ,
cording to defendants, the two-year limit,a- time in which to file its cause of action,
tions period would have expired, at the See, e.g., Moore v. Jackson Park Hospital
latest, on January 26, 1998 (two years from 95 111.2c! 223, 69 Ill.Dec. 191, 447 N.E.2d

Us

.11

$

I

i

I

1.

Plaintiffs voluntarily dismissed the Cook
County suit on September 5. 2001, and refiled
it in the circuit coun of Lake County
April
10, 2002. Defendants admit that the refHed
'action relates back to the earlier filed action.

Thus, for purposes of determining the limeliness of plaintiffs complaint, the parties agree
that the relevant filing date is Januatv 8,
1998.

i£>cfhSl-r 2.3)

K
I'

408 (1983); Goodman v. Harbor Market,
lA(i’ 278 Ill.Apjj.3d 684, 215 Ill.Dec. 263,

I that
I
I
I
I
I
I
|
|

1

)'■

483

passed” Norton, i]8 U.S. at 442, 6
S.Ct. at 1125, 30 L.Ed. at 186.

H/Tm ^laIntlffS P°Sltetl See PeOI’le ” Gersch■136 rll-2d m- 39SI.

that the result should be no different
where the change m the statute of repose
results from a judicial decision, rather thanlegislative action. Tims, plaintiffs argued
that them complaint, filed just three weeks
following this court’s decision in Best, was
filed within a reasonable period of time
following the change in the law.

The circuit court acknowledged that the
result might be harsh, hut nonetheless ajjplied the void ab initio doctrine and dis•missed plaintiffs’ complaint with prejudice.
]
.The appellate court reversed, holding that
such a result would be fundamentally unfair. The apjielhtte court found that the
filing of plaintiffs’ complaint, just three
weeks after the Best decision, was within a
f
1‘GSsonable period of time after the change
| . in the repose period for malpractice acl
tions ancl tllat the complaint was not time|
barred. 349 lll.App.3d at 169-70, 284 Ill.
Dec. 808, 810 N.E.2d 598. The appellate
court remanded the cause for additional
proceedings. 349 Ill.Ajjp.3d at 171, 284
Ill.Dec. 808, 810 N.E.2d 598. This ajjpeal
followed.

142 Ill.Dec. 757, 553 N.E.2d 2S1(1990)
(“An unconstitutional law 'confers no right,

imposes no duty and affords no protection.
It is 16 * * as though no such law had ever
been passed,’ ” quoting People v. Schraeberg, 347 Ill. 392, 394, 179 N.E. 829 (1932),
in turn citing Board of Higlnvay Commis­
sioners v. City of Bloomington, 253 Ill.
164. 376, 97 N.E. 280 (1911), in turn citing
Norton, 118 U.S. 425, 6 S.Ct. 1121, 30
U.Ed. 178). Tims, under the Noiton rule,
an unconstitutional statute is void ab initio- ie-> void •'Tram the beginning.” See
Black’s Law Dictionary 1604 (8th ed.2004).
Defendants argue that our case law
mandates strict application of the void ab
initio doctrine in both civil and criminal
cases, irrespective of the consequences,
and that the appellate.court erred in failing to apply the doctrine in this civil case
Plaintiffs argue that the better approach
takes into account the equities of a case.
and that under~the equities here, their
complaint should be allowed to proceed.
We consider these arguments in turn,
I.

Strict Ajjjjlication of the Void
Ab Initio Doctrine

ANALYSIS
The classic formulation of the void ub
initio doctrine, and the one followed in
Illinois, is found in the early case of Nor­
ton v. Shelby Comity, 118 U.S. 425, 6 S.Ct.
1121, 30 L.liil; 178 (1886). There, the
Court considered whether an unconstitu­
tional state statute that created
,
.. .
11 COUIlty

In support of their argument for strict
application of the void ab initio doctrine,
defendants rely principally on the Gersch
opinion. In Gersch, we considered wheth­
er our earlier decision in People ex rel.
Daley v. Joyce, .126 I11.2d 209, 127 Ill.Dec.
791, 533 N.E.2d 873 (1.988), should apply
retroactively to Gersch’s case. Tii Joyce

W
f 7 ly t0 a T 0f the
■
.
out answered in the negaave statmgm relevant part:
An unconst,tutional act is not a law; it
confers no rights; it imposes no duties;
it affords no protection; it creates no
office; it is, in legal contemplation, as
inoperative as though it had never been

we held that *““»
of the Code of
Criminal Procedure of 1963 (IU.Rev.Stat
1987, eh. 38, par. 115-1), which greeted the
State a right to demand a jury in certain
criminal trials, was unconstitutional.
Gersch argued in his direct a],pea] that the
State’s jury demand in his case violated his
constitutional right to a bench trial
In

(la*\brr n)

n

